HHS/OIG, Audit - "Review of CareFlites Evacuee Medical Transportation
Contract," (A-06-07-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Payments
for Durable Medical Equipment, Prosthetics, Orthotics, and Supplies Made on
Behalf of Beneficiaries in Skilled Nursing Facility Stays Covered Under Medicare
Part A," (A-01-05-00511)
June 26, 2007
Complete
Text of Report is available in PDF format (707 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For calendar years (CY) 19992002, before Common Working
File edits were fully operational, Medicare Part B made $100.8 million in
potential overpayments to suppliers of durable medical equipment, prosthetics,
orthotics, and supplies (DMEPOS) on behalf of beneficiaries in Part A-covered
skilled nursing facility stays.  For CY 2003, after the edits were fully
operational, OIGs computer match identified potential DMEPOS overpayments
valued at $15.4 million.  A statistical sample showed that the durable medical
equipment regional carriers (DMERC) had not recovered approximately 69 percent
of these overpayments.  As a result, OIG estimated that the DMERCs had not
recovered $11.2 million of the $15.4 million in potential CY 2003 overpayments.
OIG recommended that CMS (1) direct the DMERCs to review
the $100.8 million in potential overpayments for CYs 19992002 and make
appropriate recoveries, (2) direct the DMERCs to initiate recovery of the
estimated $11.2 million in CY 2003 overpayments, and (3) ensure that all DMERCs
have established proper controls to recover overpayments that the Common Working
File edits identify.  CMS concurred with the recommendations.